<html>
<title> - HONORING THE PASSENGERS AND CREW OF FLIGHT 93</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]





   HONORING THE PROTECTORS OF THE CAPITOL: THE PASSENGERS OF FLIGHT 93

=======================================================================

                                (109-30)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
    ECONOMIC DEVELOPMENT, PUBLIC BUILDINGS AND EMERGENCY MANAGEMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 26, 2005

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure



                    U.S. GOVERNMENT PRINTING OFFICE
                           WASHINGTON : 2006 
25-910 PDF

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001




             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                      DON YOUNG, Alaska, Chairman

THOMAS E. PETRI, Wisconsin, Vice-    JAMES L. OBERSTAR, Minnesota
Chair                                NICK J. RAHALL, II, West Virginia
SHERWOOD L. BOEHLERT, New York       PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
WAYNE T. GILCHREST, Maryland         Columbia
JOHN L. MICA, Florida                JERROLD NADLER, New York
PETER HOEKSTRA, Michigan             CORRINE BROWN, Florida
VERNON J. EHLERS, Michigan           BOB FILNER, California
SPENCER BACHUS, Alabama              EDDIE BERNICE JOHNSON, Texas
STEVEN C. LaTOURETTE, Ohio           GENE TAYLOR, Mississippi
SUE W. KELLY, New York               JUANITA MILLENDER-McDONALD, 
RICHARD H. BAKER, Louisiana          California
ROBERT W. NEY, Ohio                  ELIJAH E. CUMMINGS, Maryland
FRANK A. LoBIONDO, New Jersey        EARL BLUMENAUER, Oregon
JERRY MORAN, Kansas                  ELLEN O. TAUSCHER, California
GARY G. MILLER, California           BILL PASCRELL, Jr., New Jersey
ROBIN HAYES, North Carolina          LEONARD L. BOSWELL, Iowa
ROB SIMMONS, Connecticut             TIM HOLDEN, Pennsylvania
HENRY E. BROWN, Jr., South Carolina  BRIAN BAIRD, Washington
TIMOTHY V. JOHNSON, Illinois         SHELLEY BERKLEY, Nevada
TODD RUSSELL PLATTS, Pennsylvania    JIM MATHESON, Utah
SAM GRAVES, Missouri                 MICHAEL M. HONDA, California
MARK R. KENNEDY, Minnesota           RICK LARSEN, Washington
BILL SHUSTER, Pennsylvania           MICHAEL E. CAPUANO, Massachusetts
JOHN BOOZMAN, Arkansas               ANTHONY D. WEINER, New York
JIM GERLACH, Pennsylvania            JULIA CARSON, Indiana
MARIO DIAZ-BALART, Florida           TIMOTHY H. BISHOP, New York
JON C. PORTER, Nevada                MICHAEL H. MICHAUD, Maine
TOM OSBORNE, Nebraska                LINCOLN DAVIS, Tennessee
KENNY MARCHANT, Texas                BEN CHANDLER, Kentucky
MICHAEL E. SODREL, Indiana           BRIAN HIGGINS, New York
CHARLES W. DENT, Pennsylvania        RUSS CARNAHAN, Missouri
TED POE, Texas                       ALLYSON Y. SCHWARTZ, Pennsylvania
DAVID G. REICHERT, Washington        JOHN T. SALAZAR, Colorado
CONNIE MACK, Florida                 JOHN BARROW, Georgia
JOHN R. `RANDY' KUHL, Jr., New York
LUIS G. FORTUNO, Puerto Rico
LYNN A. WESTMORELAND, Georgia
CHARLES W. BOUSTANY, Jr., Louisiana
JEAN SCHMIDT, Ohio

                                  (ii)




 Subcommittee on Economic Development, Public Buildings and Emergency 
                               Management

                  BILL SHUSTER, Pennsylvania, Chairman

JIM GERLACH, Pennsylvania            ELEANOR HOLMES NORTON, District of 
KENNY MARCHANT, Texas, Vice-Chair    Columbia
CHARLES W. DENT, Pennsylvania        MICHAEL H. MICHAUD, Maine
JOHN R. `RANDY' KUHL, Jr., New York  LINCOLN DAVIS, Tennessee
DON YOUNG, Alaska                    JULIA CARSON, Indiana
  (Ex Officio)                       JAMES L. OBERSTAR, Minnesota
                                       (Ex Officio)

                                 (iii)


                                CONTENTS

                               TESTIMONY

                                                                   Page
Conrad, Hon. Kent, a Senator from the State of North Dakota......    19
 Glass, Brent, Mmember Flight 93 Memorial Advisory Commission and 
  Director, Snithsonian Museum of American History...............    10
 Mankamyer, Clay and Mary Alice, Residents of Shanksville, 
  Pennsylvania, Ambassadors at the Shanksville Memorial Site.....    10
 Nacke, Ken, Family Member of a Passenger on Flight 93...........    10
 Peterson, Hamilton, President, Families of Flight 93............    10

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Kennedy, Hon. Mark, of Minnesota.................................    35
Norton, Hon. Eleanor Holmes, of the District of Columbia.........    45

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Conrad, Hon. Kent, of North Dakota...............................    26
 Glass, Brent....................................................    31
 Mankamyer, Clay.................................................    36
 Mankamyer, Mary Alice...........................................    39
 Nacke, Ken......................................................    43
 Peterson, Hamilton..............................................    46

                       SUBMISSIONS FOR THE RECORD

Hantman. Alan, FAIA Architect of the Capitol, statement..........    24
Shuster, Hon. Bill, Chairman, Subcommittee on Economic 
  Development, Public Buildings and Emergency Mangement, "The 
  Battle for United 93", from the 9/11 Commision Report..........     3

 
             HONORING THE PASSENGERS AND CREW OF FLIGHT 93

                              ----------                              


       House of Representatives, Committee on Transportation and 
Infrastructure, Subcommittee on Economic Development, Public Buildings 
               and Emergency Management, Washington, D.C.

    The committee met, pursuant to call, at 10:00 a.m. in room 
2167, Rayburn House Office Building, Hon. Bill Shuster 
[chairman of the subcommittee] presiding.
    Mr. Shuster. The Subcommittee will come to order.
    I'd like to welcome the Subcommittee to this important 
hearing to consider the establishment of a permanent memorial 
in the U.S. Capitol to honor the heroes of United Airlines 
Flight 93. I'd also like to like to extend a special welcome to 
our invited witnesses, the family members of the heroes of 
Flight 93 who are in attendance, and a couple of my 
constituents from Somerset County, where Shanksville is 
located. Welcome to all of you today.
    On the morning of September 11th, 2001, terrorists 
viciously attacked the United States of America and unleashed a 
global war on terror. The first counterattack in this war began 
that morning in the skies over Ohio by the civilian passengers 
and crew of Flight 93. The profound courage and sacrifice they 
demonstrated under such horrifying circumstances truly makes 
them among the first heroes in the war on terror.
    Much of what we know about Flight 93 was compiled by the 9/
11 Commission and made public in its final report in July 2004. 
In a section entitled ``The Battle For United 93,'' the 9/11 
Commission presented for the first time a more complete picture 
of the hijacking, the resolve to resist by the passengers and 
crew and their struggle to retake the plane.
    On the morning of September 11th, United Airlines Flight 93 
departed from Newark, New Jersey, bound for San Francisco, 
California. At approximately 9:28 a.m., somewhere over eastern 
Ohio and just 46 minutes into the flight, four terrorists 
hijacked Flight 93 and took control of the aircraft. The 
terrorists then reprogrammed the autopilot system of the 
aircraft to turn 180 degrees and head east toward Washington, 
D.C.
    What is now known about the events following the hijacking 
of the aircraft and the plane crashing into a field in 
Shanksville, Pennsylvania, is based on telephone conversations 
with passengers and recordings from the cockpit of the 
aircraft. It was from these telephone conversations that the 
passengers and crew of Flight 93 learned of the attacks that 
had already occurred, including the two planes that had struck 
the World Trade Center Towers in New York City.
    Based on this knowledge and the belief that the terrorists 
were involved in the same plot, the passengers and crew took a 
vote and decided to retake the plan. At 9:57 a.m., the 
passengers acted and attacked the terrorists that had hijacked 
the plane. After approximately six minutes of intense struggle, 
the terrorist pilot maneuvered the aircraft in such a way as to 
crash it into an empty field in Shanksville, Pennsylvania, 
killing all aboard. According to the 9/11 Commission report, 
the hijacker's objective was to ``crash his airliner into 
symbols of the American republic, the Capitol or the White 
House. He was defeated by the alerted, unarmed passengers of 
United 93.''
    At this point, I would ask unanimous consent to insert 
``The Battle for United 93'' from the 9/11 Commission report 
into the hearing record. Without objection, so ordered.
    [The referenced document follows:] 
    [GRAPHIC] [TIFF OMITTED] T5910.001
    
    [GRAPHIC] [TIFF OMITTED] T5910.002
    
    [GRAPHIC] [TIFF OMITTED] T5910.003
    
    [GRAPHIC] [TIFF OMITTED] T5910.004
    
    [GRAPHIC] [TIFF OMITTED] T5910.005
    
    Mr. Shuster. I believe there is no doubt that the 
passengers and crew of Flight 93 were true heroes and deserve a 
memorial in their honor. America, and I believe, the Congress 
in particular, owe them a tremendous debt of gratitude for 
their courage and for their sacrifice. I believe we should 
extend that same gratitude to the family members of the 
passengers and crew. I am very pleased that we have family 
members testifying and in the audience today.
    As we all know, the Congress authorized a national memorial 
in honor of Flight 93's passengers and crew at the Shanksville, 
Pennsylvania crash site. Shanksville is a small, rural 
community in the southern portion of my Congressional district. 
Shortly after the crash, residents and visitors to the area 
created small and spontaneous memorials. Soon, family members 
and thousands of inspired travelers, pilgrims, if you will, 
descended on the hallowed ground of the crash site to pay their 
respects.
    These interactions between locals and guests, the shared 
grieving, consolation, pride, inspiration generated by the 
heroes of Flight 93 have created a unique and special 
relationship between the people of Somerset County and the 
families and heroes of Flight 93. I am pleased that we will be 
receiving testimony from a number of witnesses who are involved 
with the memorial at Shanksville, and I look forward to hearing 
their views on creating an additional memorial in the Capitol.
    As I had mentioned earlier, there is no doubt the heroes of 
Flight 93 deserve a memorial in their honor. Yet there is a 
legitimate question of whether we should create one in the 
Capitol. Personally I believe the 9/11 Commission report was 
clear when it said the target was most likely the Capitol or 
the White House. Perhaps we will never know for sure. But I do 
not believe that should prevent us from placing a symbol of our 
respect and a reminder of their courage for all to see in the 
Capitol.
    I believe a memorial can be designed that accurately 
portrays the facts as we know them, honors their sacrifice and 
reflects the uncertainty of the intended target. It is for 
these reasons that I introduced a resolution to establish the 
Capitol memorial. The actions taken by the heroes of Flight 93 
hits particularly close to home, considering that your family 
members likely saved the lives of many of my colleagues and co-
workers who were here that day. I believe I can say on behalf 
of all members of Congress and the Capitol Hill community, 
thank you. Thank you for the sacrifices your families have 
endured to keep this Nation and its people safe. We are 
profoundly grateful.
    With that, I would like to recognize our Ranking Member, 
Ms. Norton from the District of Columbia, for any opening 
statement she may have.
    Ms. Norton. Thank you very much, Chairman Shuster. I very 
much appreciate that you have called this hearing this morning.
    I want to especially welcome the witnesses we have invited, 
and especially the relatives and the volunteers at the 
Shanksville site. I do want to say the special kinship those of 
us, especially those of us who live in the Nation's Capital, in 
the District of Columbia, feel and will always feel with 
Shanksville.
    I do want to also apologize. I have left a hearing, a 
Homeland Security hearing, where a rail security bill that I am 
a major sponsor of is being considered. So I am not going to be 
able to hear the testimony personally, but I will have staff 
here and I will look closely at the testimony and read the 
testimony personally.
    As I am sure you know, we are profoundly grateful to you 
for your dedication and devotion, Mr. Chairman, to ensuring the 
contributions and to the witnesses for keeping alive the 
contributions of their loved ones, their neighbors and the 
appropriateness that we find a way to acknowledge their 
contribution. Through the testimony this morning, I hope we can 
identify creative and legislative options, non-controversial if 
we think hard, I think we can do that, to honor those who died 
and sacrificed at Shanksville and in Pennsylvania, and their 
contributions and the contributions that you continue to make.
    I look forward to reading the testimony and to hearing your 
suggestions for a suitable memorial.
    Thank you again, Mr. Chairman, for your thoughtfulness in 
calling this hearing.
    Mr. Shuster. Thank you, Ms. Norton.
    At this point, I would like to note that Senator Kent 
Conrad from North Dakota, the sponsor of Senate Resolution 26, 
might be joining us this morning. I understand he has an 
ongoing markup this morning and he will have a fairly short 
window of opportunity to testify. But he desperately wanted to 
testify this morning, which I appreciate. Given his tight 
schedule, when he arrives, I would like to wait for a logical 
break in the hearing, then ask consent to allow the Senator to 
testify at that point. After his testimony and a brief period 
for questions, we will pick up the hearing where we left off.
    So I ask unanimous consent that all of our witnesses' full 
statements be included in the record. And without objection, so 
ordered.
    I am pleased to introduce the first witness of our panel, 
Mr. D. Hamilton Peterson, whose father, Donald A. Peterson and 
stepmother, Jean H. Peterson, were both passengers aboard 
Flight 93. Mr. Peterson is also the current President of 
Families of Flight 93. Our second witness is from Baltimore 
County, police officer Ken Nacke, whose brother, Louis Joseph 
Nacke, II, was aboard Flight 93. Officer Nacke is also a board 
member of the Families of Flight 93.
    We also have with us Dr. Brent Glass. He is the Director of 
the Smithsonian's National Museum of American History. Dr. 
Glass also serves as a member of the Flight 93 National 
Memorial Commission. And our fourth and fifth witnesses are Mr. 
Clay Mankamyer, a Flight 93 volunteer ambassador, and his wife, 
Mary Alice Mankamyer, also a Flight 93 volunteer ambassador 
from Somerset County. Welcome to my two constituents.
    And for those of you that don't know the ambassador 
program, it formed spontaneously as visitors came to the town 
of Shanksville and to the site, there was nobody there to show 
them around. But folks like the Mankamyers just started this 
with a bunch of other folks and have really done a great job, 
not only for the site, but to help the families and all those 
involved.
    So again, welcome to all of you. Since your written 
testimony has been made part of the record, the Subcommittee 
requests that all witnesses limit their summary to five 
minutes. There will be time for questions after all the 
witnesses have offered their prepared remarks. So Mr. Peterson, 
if you would proceed first.

STATEMENTS OF HAMILTON PETERSON, PRESIDENT, FAMILIES OF FLIGHT 
93; KEN NACKE, FAMILY MEMBER OF A PASSENGER ON FLIGHT 93; BRENT 
   GLASS, MEMBER, FLIGHT 93 MEMORIAL ADVISORY COMMISSION AND 
    DIRECTOR, SMITHSONIAN MUSEUM OF AMERICAN HISTORY; CLAY 
 MANKAMYER AND MARY ALICE MANKAMYER, RESIDENTS OF SHANKSVILLE, 
   PENNSYLVANIA, AMBASSADORS AT THE SHANKSVILLE MEMORIAL SITE

    Mr. Peterson. Thank you very much, Chairman Shuster.
    Good morning. Thank you for your invitation to appear today 
to discuss the importance of a permanent memorial in the United 
States Capitol and yours and Mr. Murtha's very important 
sponsorship of this resolution. I would also like to thank 
Ranking Member Norton and the other members of the Committee 
for inviting us to testify today. It is a privilege and an 
honor to speak before you regarding your proposed United States 
Capitol memorial to Flight 93.
    My name is Hamilton Peterson, and again, as you said, my 
father, Donald A. Peterson and my stepmother, Jean Hoadley 
Peterson, both perished aborad United Flight 93. I am president 
of Families of Flight 93, a 501(c)(3) non-profit, incorporated 
under Pennsylvania law, comprised of family members who lost 
relatives on Flight 93.
    In addition, as you mentioned, Mr. Chairman, we have a 
member of our family board also present today, seated in the 
first row, Ms. Allison Vadhan. She lost her mother, Ms. Kristin 
Gould White, on Flight 93.
    Our group, in conjunction with a Federal advisory 
commission, the National Park Service and the National Park 
Foundation, is working to build a memorial in Shanksville, 
Pennsylvania, honoring the passengers and crew of Flight 93. On 
behalf of the Families of Flight 93, I am grateful for this 
opportunity to present our views concerning the permanent 
memorial in the U.S. Capitol.
    Also present and testifying with me today in support of 
this honorable resolution is my fellow board member to my 
immediate left, and also a Flight 93 federal advisory 
commissioner, Ken Nacke, who lost his brother Joey aboard 
Flight 93. Unable to attend today is board member Patrick White 
of Naples, Florida. Mr. White is our board government affairs 
liaison and he has worked closely with Congress with respect to 
our Shanksville site memorial.
    It is with extreme enthusiasm and heartfelt appreciation 
that Mr. White, Mr. Nacke and I report back to you, Chairman 
Shuster, that without objection, our family board endorses your 
kind and generous resolution to memorialize Flight 93 at the 
United States Capitol. The 9/11 Commission aptly titled the 
section of its report describing Flight 93 as the Battle for 
United 93. These simple words alone provide enormous insight 
into what happened on that plane on the morning of September 
11th, as heroic passengers and crews, aided by information 
provided to them by friends and family, began their struggle to 
prevent their flight from becoming another missile of death and 
destruction.
    The four hijackers had armed themselves with knives and 
claimed to have a bomb. The passengers and crew were armed only 
with their ability to believe the unbelievable news they heard 
in phone calls with those on the ground and with their 
determination to engage their hijackers in a battle of historic 
proportions. Of course, the exact details of the battle for 
United 93 may never be fully known. What we do know is that 
those aboard the plane mounted a heroic effort to fight back 
and thwart the hijackers. Information pieced together from 
phone conversations, the cockpit voice recorder and radio 
transmissions from Flight 93 reveal that the passengers and 
crew had devised a plan to revolt against the hijackers and 
began that revolt shortly before 10:00 a.m.
    Based on information passengers and crews provided to 
friends and family, it is believed that at least two people had 
been stabbed and lay either dead or injured on the cabin floor. 
Many who have listened to the cockpit voice recorder from 
United 93, including myself, also surmise that a female flight 
attendant who may have been held hostage in the cockpit fought 
back against the hijackers and was subsequently murdered.
    As the plane raced towards Washington, the passengers and 
crew raced towards the cockpit and began their courageous 
battle. The cockpit voice recorder contains heart-wrenching 
sounds of their efforts to break through the cockpit door. 
Voices of passengers and crew, while muffled and difficult to 
identify, could be discerned as could the sounds of breaking 
glasses and plates.
    In my mind, as I listened to the cockpit voice recorder, I 
could see those brave individuals using the food service cart 
as a battering ram, trying with all of their might to break 
through the cockpit door. At least one passenger was a pilot, 
another had training as an air traffic controller. Had the 
cockpit been retaken, it is entirely possible that these 
passengers and crew could have brought Flight 93 to safety.
    The hijackers were, of course, aware of the revolt taking 
place in the cabin. The valiant efforts of the passengers and 
crew to enter the cockpit were answered almost immediately by 
the hijacker piloting the plane. Ziad Jarrah started to roll 
United 93 violently to the left and right, obviously attempting 
to frustrate the mounting counter-attack by the passengers and 
crew by throwing them off balance in the airplane.
    Another aircraft in the skies above Pennsylvania that 
morning reported seeing Flight 93 ``waving his wings.'' Several 
people on the ground who witnessed Flight 93 in its last 
minutes in the sky later commented on seeing the plane dip its 
wings sharply to the left and then to the right. In spite of 
these attempts to thwart them, the passengers and crew 
continued their fight. They never gave up.
    The cockpit voice recorder continued as well, recording the 
sounds of the persistent assault on the cockpit right up until 
the end when the plane crashed into an empty field at 580 miles 
per hour. At the time that it crashed, Flight 93 was only 20 
minutes flying time from where we sit today. Had the plane 
reached its destination, which we surmise was the Capitol 
Building, it would have crashed here at approximately 10:30 
when the Capitol would have been teeming with people.
    Information gleaned from interviews of conspirators to the 
9/11 attacks as well as the recent Zacarias Moussaoui guilty 
plea in Federal Court in the Eastern District of Virginia 
indeed indicates that the hijackers most likely intended to fly 
Flight 93 into our Capitol Building. The hijackers were no 
doubt aware of the success of their confederates earlier that 
morning and were intent on carrying out their mission here as 
well. The 9/11 plan, apparently years in the making, was being 
successfully played out.
    The passengers and crew of Flight 93, however, had a 
different plan. Against all odds, they banded together to foil 
four armed terrorists. Of course, there was a qualified 
success: the passengers and crew saved countless lives here in 
Washington but lost their own. Al Qaeda had been handed its 
first defeat by a small group of unarmed individuals, all 
regular people that morning they boarded the plane, all 
remarkable heroes by that afternoon.
    It is against this backdrop that we sit here today. You 
have asked us, Chairman, whether a memorial in the United 
States Capitol Building is appropriate. After all, memorials in 
our Capitol must be special. To have them at every turn for 
everything and anything would no doubt dilute their intended 
effect: to give people pause to remember a person or event that 
made a significant difference in the history of our Country. 
With all we know about what happened on board Flight 93, there 
can be no doubt that a permanent memorial in the United States 
Capitol is both appropriate and indeed necessary, as is the 
memorial being planned for the crash site in Shanksville, 
Pennsylvania.
    How many people working here or visiting this Capitol would 
not be here today had the passengers and crew of that plane 
chosen to remain passive? The tolls of death and destruction at 
the World Trade Center and the Pentagon are grim reminders of 
what could have been, in this very spot, almost to the minute 
at 10:30 as we testify here today.
    In summary, my two sons were five and a half and one and a 
half on September 11th, 2001. The older was well aware of what 
had happened that day and how it affected our Nation. Many 
young Americans, of course, were not directly impacted by the 
events, and know little of the bravery exhibited that day by 
countless people: firefighters, office workers, citizens, 
airplane passengers and police. This memorial to Flight 93 
would be a permanent reminder of the power of a handful of good 
people. In this age when evildoers get most of the news 
coverage, how important it is to have a tribute to those who 
faced evil with courage and conviction and refused to give up.
    In closing, I am often asked why it is so important that we 
honor and memorialize the actions of those aboard Flight 93. My 
constant refrain is, ask yourself what message would have been 
sent to the world had the terrorists prevailed in destroying 
one of the greatest icons of democracy and of the free world: 
the U.S. Capitol and all that it represents. Instead of a 
complete victory of evil over good on that dark day, a 
beautiful ray of hope emerged, a message of hope and survival 
and ultimate triumph. Not three months later, in December of 
2001, that positive message inspired passengers and crew aboard 
a trans-Atlantic flight to thwart Richard Reid in his attempt 
to detonate a shoe bomb powerful enough to have penetrated the 
fuselage of a trans-Atlantic flight flying from Paris to Miami. 
Indeed, every day across the world as passengers and crew board 
flights, there is an implicit understanding that people are 
ready to take action and prevent terrorists from stealing our 
freedom and our lives.
    Flight 93's eternal gift is the knowledge that good can and 
must prevail. On my own behalf and behalf of the Families of 
Flight 93, I thank you, Ms. Shuster, as well as Mr. Murtha, 
members of this Committee, as well as Senators Santorum and 
Conrad, for your efforts to memorialize the sacrifice and 
bravery of our families.
    Mr. Shuster. Thank you, Mr. Peterson. I also want to say 
how we appreciate that endorsement by the Families of Flight 93 
also. Thank you.
    I also want the record to reflect that Allison White Vadhan 
is present today. We thank you very much for coming, the 
daughter of Kristin White Gould, who was on Flight 93. Thank 
you very much for coming. I want to make sure the record 
reflects that you are here.
    With that, Mr. Nacke, you may proceed.
    Mr. Nacke. Thank you, Mr. Chairman.
    My testimony will be a little bit shorter than my cohort 
next to me. Good morning, and thank you for inviting me.
    Please allow me to introduce myself. My name is Ken Nacke. 
I am currently a police officer with the Baltimore County 
Police Department for almost the past 18 years in the great 
State of Maryland. My brother, Louis Joseph Nacke, II, 
sometimes I will slip and call him Joey, because that's how he 
is fondly known through our family, was one of the heroes 
aboard Flight 93.
    I use the word hero because most people always say the word 
victim, and I truly believe our loved ones were not victims, 
but they were heroes, and they rose above. They took their own 
destiny in their hands and acted upon it, instead of just 
waiting for things to be played out.
    On September 11th, 2001, the extraordinary acts of the 40 
individuals united the Nation and showed what true patriotism 
is all about. They thwarted a planned attack on our Nation's 
Capitol, thereby saving the lives of countless others and truly 
winning the first battle in the war against terrorism. The 
actions of the passengers and crew have not gone unnoticed by 
the citizens of this great Nation.
    I truly feel that placing a memorial honoring the heroes of 
Flight 93 inside the Capitol Building would ensure that our 
loved ones are cherished, honored and remembered for 
generations to come. And it is truly what I would want to 
convey today to your Committee and to our Nation, that these 
loved ones should be remembered, honored and cherished. Three 
words always come to mind when I talk to Dr. Brent Glass and to 
Hamilton or anybody else, it is unity, hope and trust. Our 
loved ones united, they had hoped to prevail and they trusted 
each other. And that's the backbone of our Country.
    My whole family and I support this endeavor, what you're 
trying to do, placing some type of memorial in the Capitol. I 
truly believe that our Country is a better place because of the 
actions of the passengers and crew of Flight 93. I for one know 
that I am a better person because of their actions.
    There are bizarre ironies in life. Twenty years ago I was a 
policeman here in Washington, D.C., and so was Hamilton 
Peterson, next to me. One of my first footposts was right 
outside of the Capitol Building, walking up and down 
Pennsylvania Avenue, just blocks up the road. I can remember 
times going up and down and seeing this building and marveled 
at what it stood for. It is so strange that our family members 
would sacrifice their lives decades later to protect our great 
Nation, in an area where I once walked.
    In closing, I consider it a great honor that you ladies and 
gentlemen are placing a memorial and honoring my brother Joey 
and the heroes of Flight 93. If and when you guys choose to 
place a fitting memorial, with whatever you want the design to 
be, because I truly believe it is not what the families or I 
would want to see, it is what our Nation would want honoring 
those loved ones. That's the important thing here, is that it 
is the Nation that is honoring the 40 true heroes of Flight 93.
    When that date does come, I would like to be invited to see 
that, when it is placed on the hallowed walls of the Capitol 
Building. I do really thank you for the time and the honor of 
speaking in front of you.
    Mr. Shuster. Thank you very much. It is an honor to have 
you here with us today.
    Next, Dr. Glass, you may proceed.
    Mr. Glass. Thank you, Mr. Chairman. Thank you for the 
invitation to speak at this hearing. It is a privilege for me 
to join my fellow panelists at this hearing and also to speak 
to you and recognize other members of the Committee, two 
members I have worked with closely when I was in Pennsylvania, 
Mr. Gerlock and Mr. Dent. It is nice to be in your company 
again.
    I am Brent Glass, Director of the Smithsonian's National 
Museum of American History. I am also a member of the Flight 93 
National Memorial Commission. However, I need to mention, I am 
not representing the Smithsonian today, nor am I representing 
or speaking for the Memorial Commission. I am speaking as a 
professional historian who has worked for over 30 years in the 
field of public history. This work has involved planning, 
developing and preserving public monuments, memorials and 
historical markers.
    Within days after the tragic events of September 11th, 
2001, people from around the world visited the locations near 
the crash site of Flight 93 and left personal tributes to the 
passengers and crew. A number of those tributes are here on 
display at this hearing.
    At the time of September 11th, 2001, I served as Executive 
Director of the Pennsylvania Historical and Museum Commission. 
The Somerset Historical Center, located a few miles from the 
crash site, is one of the museums administered by the 
commission.
    At the request of the Somerset County commissioners, I 
agreed to collaborate with the county historical society to 
maintain the extensive collections that were being left at 
these locations and at the temporary memorial constructed by 
the county near the crash site. These tribes consisted of 
flags, hats, buttons, poems, signs, many other expressions of 
grief, pride and patriotism. The story of Flight 93 very 
quickly captured the public's imagination, and the temporary 
memorial became a destination for thousands of people from 
around the Country and around the world.
    The makeshift, informal quality of this memorial, in my 
opinion, made it even more beautiful and meaningful, because it 
reflected a grassroots effort to remember and honor the 40 
passengers and crew who died on that fateful day. The work of 
the Flight 93 ambassadors, and you will hear from them shortly, 
who guide visitors and provide information at the temporary 
memorial, added to the experience of visiting the site.
    Standing at the temporary memorial, within site of a former 
coal mine, farm lands, game lands, a visitor can feel an 
emotional and spiritual power that is similar to a visit to 
Gettysburg or Antietam. The Flight 93 Memorial Commission is in 
the final stages of selecting a design for the permanent 
memorial and the location will be near the crash site. The 
commission, under the direction of the National Park Service, 
has worked hard to identify boundaries for the memorial and to 
select jurors for the design competition who represent the 
variety of stakeholders in addition to design professionals.
    As a member of the commission, I have been most impressed 
by the dedication and passion of everyone involved in this 
process to ensure that we develop a memorial that pays tribute 
to the sacrifice of 40 people who were passengers and crew, and 
that places the story of Flight 93 within the larger context of 
the events of September 11th. The commission has posted the 
designs of five finalists on its web site, 
www.Flight93memorialproject.org. I encourage everyone to take a 
look at the five finalists. They are most interesting.
    I provide this background to the Committee because it is 
important that the focus of the effort to memorialize the 
passengers and crew of Flight 93 remain on the development of 
the memorial in Somerset County. I am supportive of a memorial 
in Washington to recognize the sacrifice of passengers and 
crew, provided it does not draw attention or support away from 
the permanent memorial. I do not expect that this will happen, 
but I did want to express my concern.
    As a historian, I am more concerned that a memorial in 
Washington reflects the facts about Flight 93. There is much 
that we do not know and may never know about those terrifying 
moments prior to the crash. If a memorial is developed, we 
should avoid trying to fill in the gaps. For example, we do not 
know the motivations of the people who resisted the hijackers. 
We do not know the intended target of the hijackers.
    The 9/11 Commission Report is the best source I know of to 
offer guidance about the sequence of events on that day. That 
report makes it clear that an active resistance took place 
during that flight that directly contributed to the crash in a 
remote field in Pennsylvania. That story alone is inspirational 
and compelling. We do not need to improve upon it by adding 
details that are not supported by physical, written or oral 
evidence. The memorial can be inspirational and respectful of 
the sacrifices and loss and still be true to the historical 
record.
    By acknowledging that we do not know all the details of 
Flight 93, we will allow visitors to reflect on what might have 
happened and how they might have reacted if they were in those 
awful circumstances. Good history always involves imagination. 
I am confident that we can honor the passengers and crew, even 
if we have to imagine what took place in their final moments.
    Thank you.
    Mr. Shuster. Thank you, Dr. Glass, and I couldn't agree 
with you more. We will make certain that Oliver Stone is not 
going to participate in this historical event. If you have seen 
his movies, he tends to fill in the blanks, as you say, which I 
think is very inappropriate.
    Thank you, Dr. Glass, and thank you for your service on the 
Flight 93 memorial and your good work at the Smithsonian.
    Next up, Mr. Mankamyer, you can proceed.
    Mr. Mankamyer. Thank you, Mr. Chairman.
    The events of September 11th, 2001, and subsequent related 
events, hold special significance for me as a volunteer 
ambassador at the temporary memorial and a resident of the 
nearby town of Shanksville. I also serve on the Flight 93 task 
force design solicitation committee.
    I have witnessed my fellow ambassadors standing in a wind 
chill well below zero as well as in the burning sun with a heat 
index around 100, just to welcome total strangers to the site 
and to tell the story of the historic, heroic deeds that ended 
there. Bear in mind, not all the volunteers are as young as my 
wife and I.
    I still often have to wipe away tears and choke back my 
emotions as I watch men, women and children do the same, as 
they relive the tragic yet so very inspiring end to Flight 93. 
The story is special to me because 40 ordinary people, the vast 
majority of whom were total strangers, agreed, at least without 
known and open dissent, to take action which they knew would 
likely cost them their lives. Not only was this the site of the 
first battle fought on the war on terror, but the first 
victory. This victory came at a great price. It was a victory, 
nonetheless.
    It is the place where the battle cry for the war against 
terror was coined. Todd Beamer joined the insurrection on board 
with the command, ``Let's roll.'' This battle cry will go down 
in history, much like ``no taxation without representation'' or 
``remember the Alamo.'' ``Let's roll'' was used by our 
President to inspire a Nation still in shock but needing to 
prepare for war.
    This inspiring slogan was placed on the cockpit of bombers 
in Afghanistan and appeared on jet fighters over Iraq. Now it 
is time to honor the heroes of Flight 93 in our Nation's 
Capitol with a permanent memorial, and with a memorial in that 
field of honor near Shanksville, Pennsylvania.
    This story must be told down through the generations to 
continue to inspire our Nation to remain vigilant in guarding 
our God-given liberties, as do the battlefields of the war of 
liberation and the Alamo. It must serve as a reminder of the 
cost of complacency or underestimating the threat to our way of 
life posed by the enemies of free speech, freedom of religion 
and the right to be secure in our own properties. The story 
must remain unedited by the forces of political correctness, 
heralding the deep religious conviction and strong moral 
character that motivated the passengers and crew of Flight 93.
    They have done their part, and we ambassadors are doing 
ours. The partners, including the families of the heroes, the 
Park Service, the task force, committee members and the 
commission are doing their part in working to erect a fitting 
memorial at the crash site.
    It is now time for Congress to do its part. Please pass 
this resolution, erect a commemorative plaque in the Capitol. 
Help us finish the work that needs to be done on that sacred 
ground in Pennsylvania on behalf of a grateful Nation which is 
in desperate need of heroes and inspiration to carry on in the 
fight begun on September 11th, 2001.
    Mr. Shuster. Thank you, Mr. Mankamyer.
    Mrs. Mankamyer, please proceed.
    Mrs. Mankamyer. I'm a volunteer ambassador for Flight 93, 
and live in the small town of Shanksville with only 245 
residents.
    Soon after the crash of Flight 93, the people in town 
thought they needed to honor the heroes who died so near to our 
town. At the end of Main Street, a small memorial started to 
take shape, with board, a sign, a cross, flag and a fence. 
People came from everywhere and many tributes were left there. 
A wreath with a note attached said ``Thanks for saving us,'' 
signed by Capitol Hill employees, was left at the site.
    On October 2001, a temporary memorial was opened to the 
public. Visitors to the site were often confused as to where 
the plane crashed. A meeting was held on January 26th, 2002, 
and those attending agreed about the need to be at the site to 
greet the visitors and give accurate information. We now have 
40 volunteer ambassadors to staff the site every day.
    Our purpose is to honor those who died on Flight 93, to 
answer questions, to give a hug, cry with them and provide a 
listening ear. Well over 130,000 people have come each year. At 
this time we are greeting more then 5,000 visitors every week 
from all over the world. Somerset County commissioners erected 
a bronze plaque bearing the names of the passengers and crew 
along with flag poles that fly the United States and 
Pennsylvania State flags. A large wooden cross draped in the 
white cloth was erected near the command post to offer comfort 
and hope to the arriving families of the heroes of Flight 93.
    Two men climbed a 200 foot boom of a drag line and huge a 
huge American flag. A Guatemalan man sent a large granite 
plaque weighing more than 450 pounds. People come to pray, 
meditate and reflect at the site. I met a woman who was trapped 
in the Pentagon rubble who said how difficult it was for her to 
go back to work. I held her for a long time as we cried 
together. I especially remember a Native American Indian 
sitting, in his costume, in 22 inches of snow and it was 18 
below zero, to meditate and show his respect.
    Many visitors feel compelled to leave something at the 
memorial fence as a tribute. Among the tributes are a flight 
attendant's uniform, military ribbons, medals, miliary boots, 
Bibles, children's toys and a newspaper article about a Bible 
that survived the crash. A note read: ``My son works on Capitol 
Hill, the Hart Building, and I feel he was saved because of the 
heroes of Flight 93.''
    One of the main things written and said at the site is 
``God Bless America'' and ``God bless you'' to the heroes and 
families of Flight 93. Things which cannot remain outdoors are 
collected by the curator, cleaned, cataloged and stored. To 
date we have more than 20,000 items. In the front of the room 
here there is a display at the table with some of these items. 
I hope you will take time to look at them.
    We are in the process of an oral history project to 
preserve this historical account. There were over 1,063 entries 
to the permanent memorial design competition. The top five 
designs are being displayed in Somerset. A jury will announce 
the winning design on September 7th in Washington, D.C.
    We are grateful for your efforts to see that the permanent 
memorial is built at the site in Stonycreek Township where we 
saw the resolve, strength and courage of those 40, one of whom 
was pregnant, brave people to overcome their fears and in so 
doing, their story was heard around the world. These men and 
women who, only about 15 minutes away from Washington, D.C., 
came together to stop the destructive actions of the terrorists 
and in so doing turned the crash into a place of victory.
    I am reminded of a Bible verse in John 15:13 that says, 
``Greater love hath no man than this, than a man lay down his 
life for his friends.'' They laid down their lives for you and 
me, not even friends, but strangers. A peaceful field is the 
final resting place for the heroes of Flight 93. This memorial 
is needed so we as a Nation and world have a place to grieve 
and show respect for what has happened in our Country; a place 
of healing and inspiration for all who come.
    The Flight 93 national memorial statement says it well: 
``May all who visit this place remember the collective acts of 
courage and sacrifice of the passengers and crew, revered as 
hallowed ground as the final resting place for these heroes, 
and reflect the power of the individuals who chose to make a 
difference.''
    Therefore, it is certainly fitting that a placque to honor 
the passengers and crew of Flight 93 should be placed in this, 
our Nation's Capitol, so all who come to visit can likewise 
read it and reflect for this and all generations to come to 
never forget the events that took place on September 11th, 
2001. The Flight 93 memorial mission states so wonderfully, ``A 
common field one day, a field of honor forever.''
    In closing, I would like to thank you for the opportunity 
of testifying here today. It was truly an honor. Please know 
that there are many people who are thankful for all that you do 
here for us and that we are praying for you.
    Thank you.
    Mr. Shuster. Thank you, Mrs. Mankamyer. And thank you and 
your husband for your role there at the site. I know there are 
hot summers, but many people don't know how bitterly cold 
Somerset County can be in the winter. I have been there when it 
has been cold and when it has been hot. We appreciate what you 
and all the ambassadors do at the Flight 93 site.
    At this time, I would like to welcome Senator Conrad and 
invite him to come up to the desk. I would also ask unanimous 
consent that he be able to address the Subcommittee. Without 
objection, so ordered.
    Senator Conrad is the original sponsor of the Senate 
Concurrent Resolution 26, which would establish a memorial to 
the heroes of Flight 93 in the U.S. Capitol. Through Senator 
Conrad's leadership in the Senate, along with Senators Santorum 
and Specter, S. Con. Res. 26 was unanimously approved by the 
Senate on July 18th. We are very pleased that you are able to 
join us here this morning and look forward to your testimony, 
Senator. Please proceed.

  STATEMENT OF THE HONORABLE KENT CONRAD, A SENATOR FROM THE 
                     STATE OF NORTH DAKOTA

    Senator Conrad. Mr. Chairman, thank you very much for this 
opportunity, and to the members of the Committee, as well. I 
also first want to apologize to the other witnesses here. The 
Senate is about to have a series of roll call votes, and of 
course, as usual in the Senate, without notice. So I apologize.
    I thank you, Mr. Chairman, very much, for holding this 
hearing. I thank you very much for your co-sponsorship of this 
important resolution. We are here today to talk about a 
resolution to honor the passengers of Flight 93 for their 
heroic actions on 9/11. Again I want to thank you, Mr. 
Chairman, and Congressman Murtha for sponsoring this 
legislation in the House. As you have indicated, it has passed 
the Senate on a unanimous consent provision. It passed last 
year in the Senate as well. The House did not have a chance to 
act before the adjournment of the 108th Congress. I am hopeful 
that this hearing will provide impetus to the House passage of 
this resolution as well.
    As the story of 9/11 continues to unfold, it becomes even 
more clear how critically important the actions of the 
passengers and crew of Flight 93 were. The 9/11 Commission 
reports that the passengers of Flight 93 learned through a 
series of phone calls to loved ones that hijackers on three 
other flights had turned airplanes into flying bombs that 
morning. As we all know, those planes were crashed into the 
World Trade Center and the Pentagon.
    Armed only with that knowledge and their own courage and 
resolve, those brave passengers attacked the hijackers. They 
attempted to regain control of the aircraft which tragically 
crashed in rural Pennsylvania.
    However, as a result of their actions, the terrorists on 
Flight 93 were prevented from executing another devastating and 
deadly attack. The 9/11 Commission concluded, ``The Nation owes 
them a debt, a deep debt.'' Mr. Chairman, it is time for us in 
Congress to acknowledge that debt. The 9/11 Commission also 
concluded that their actions saved the lives of countless 
others and likely saved either the United States Capitol or the 
White House.
    As I watched the Nation respond to the events of 9/11, I 
fully expected that there would be a memorial to the 
extraordinary heroism of the passengers and crew of Flight 93. 
And in fact, actions have been taken. But Mr. Chairman and 
members of this Committee, as you all know well, we have not 
recognized their heroism in this Capitol complex. I believe we 
need to do that. If there were ever true American heroes, these 
passengers and crew of Flight 93 fit that description.
    As I have read the reports of what occurred on that plane, 
those that gathered to take on the terrorists had to know they 
were risking everything. I think it is forever embedded on the 
American consciousness the two words, ``Let's roll.'' I got 
back in my own mind to those moments. I remember being told by 
security forces to evacuate the Capitol because there was a 
plane eight minutes out, that's what we were told. They thought 
the Capitol complex might be a target.
    I remember hundreds of people streaming out of the Capitol 
that morning, not knowing what was occurring in our Country, 
seeing the smoke billowing from the Pentagon, watching the 
television reports of planes flying into the World Trade 
Center. And then this fourth plane, fate unknown. Moments 
later, finding out that it had crashed in Pennsylvania, not 
knowing the cause. And to have learned afterwards of the 
courage, of the bravery of the people who rallied to America's 
cause that morning. They deserve our deepest gratitude. And it 
must be recognized in the Capitol.
    Mr. Chairman, I hope very much the House will take prompt 
action on this matter. I thank you very much for your co-
sponsorship. This is a bit of unfinished business for America 
from 9/11, and we ought to conclude it promptly and correctly. 
And we ought to recognize our profound respect for the 
passengers and crew of Flight 93, and send our deepest 
condolences to the families of those affected. I thank the 
Chairman.
    Mr. Shuster. Thank you, Senator, and you are absolutely 
right, this is unfinished business. I have asked the Speaker to 
hold at the desk your resolution so that we can take it 
straight to the Floor when we come back from August recess. I 
am very hopeful and confident that that will happen and we will 
be able to get this passed and move forward.
    So thank you for your leadership in the Senate. We 
certainly appreciate that. Thank you for being here today.
    Senator Conrad. Thank you, Mr. Chairman, and members of the 
Committee as well. Thank you very much.
    Mr. Shuster. Thank you.
    With that, we are going to open it up for some questions, 
to anybody on the panel. I will go ahead and start--Mr. Dent, 
do you have a question you want to ask? I will start with you 
if you like.
    Mr. Dent. I just want to applaud you and Senators Conrad 
and Santorum for your leadership on this issue, along with 
Representative Murtha. As a Pennsylvanian, I certainly support 
this measures, and as one who represents eastern Pennsylvania, 
I had constituents who perished on 9/11, and a family member on 
the 91st floor of the first tower who remarkably escaped after 
the first plane hit the 93rd floor where he worked.
    The only thing I really wanted to add to this is that I 
think, Dr. Glass, your comments are right on point. I also want 
to note for the record that those of you from Somerset County 
should know that, and Dr. Glass, you might want to clarify this 
point, that not only did we experience the horrible plane crash 
on September 11th, but I believe the coal miners, that incident 
occurred not very far from the site in Somerset County. I 
believe back in the 18th century, a young Army officer named 
George Washington was in that general vicinity as well, and he 
was captured at Fort Necessity. There is a lot of historical 
significance to what has occurred out there near Shanksville.
    Again, I just support this effort and I do want to express 
my condolences to those of you who are here today and all the 
other families who lost so much on that day. Thank you, and I 
applaud your measure.
    Mr. Shuster. Thank you. I also wanted to point out, which I 
regularly do, that just about eight miles south of Shanksville 
is a little town called Berlin, Pennsylvania. Most people don't 
remember, but that was the epicenter for the Whiskey Rebellion 
that occurred in the first year of George Washington's second 
term. There was a rebellion here, farmers rose up, they didn't 
want to pay the tax on their whiskey. George Washington got on 
his horse and rode up into Pennsylvania to put down the 
rebellion.
    I often remind people of Berlin because the war on terror 
started at Shanksville, the first counter-attack, and it is 
ongoing. We in America today want things to be over so quick 
and to be so neat. But when you look back in our history, five 
years into the founding of our Nation, we had to put up with a 
rebellion ourselves. I think it is providence that it is only 
about eight miles from Shanksville, Berlin. So we should all be 
remembered of our history and that it is never easy when you 
are building a nation and building democracy.
    I have a couple of questions, first for Mr. Peterson. Given 
your experience with the memorial in Shanksville, do you 
believe that a memorial here at the Capitol can detract in any 
way from the memorial in Shanksville?
    Mr. Peterson. Absolutely not, Chairman Shuster. If 
anything, I believe both of these very necessary memorials 
reaffirm the commitment by the citizens and the passengers and 
crew on that flight. I think both need to exist, at a minimum, 
and I think they will send a message appropriately. Senator 
Conrad also said it well, with respect to that debt, that duty, 
that obligation.
    Mr. Shuster. Mr. Nacke, in your experience, are there any 
lessons that you may have taken away, as you have been watching 
what's happened in Shanksville, that we might be able to apply 
to a memorial that we set up here in the Capitol?
    Mr. Nacke. I think the first thing that comes to mind is 
inclusion. Like I said in my testimony, it is the Nation, it is 
not truly what Hamilton wants or what I want, it is what the 
Nation wants. It is your job pretty much to represent the 
Nation's wishes. So I think you have your finger on the pulse, 
so to speak, and you are headed in the right direction.
    There are things I would like to see, and there are 
probably things Hamilton would like to see, but like I said, it 
is not truly what we would like to see, it is truly what our 
Nation wants to see. And what a fitting place to be, in the 
hallowed halls of the Capitol Building.
    Mr. Shuster. And to the Mankamyers, anything, your 
thoughts? Do you believe we can do a memorial here in the 
Capitol and not detract or take away anything from Shanksville?
    Mr. Mankamyer. I think there will be quite a number of 
visitors to the Capitol who may never make it to Shanksville. 
They need the benefit of that inspiration as well. If anything, 
that might inspire them to want to make a trip up to 
Shanksville and see our memorial there as well. I think it will 
be a plus, not a minus at all.
    The only concern that I offer is, you can only put so much 
on a placque, of course, but as the debate goes on, once it is 
considered what should go on that plaque, that political 
correctness not be one of the considerations, that truth and a 
fitting memorial be the consideration for what appears here as 
well as in Shanksville.
    Mr. Shuster. And Dr. Glass, my question to you is, what do 
you see, I know we had mentioned, and I couldn't agree with you 
more, we have to make sure we stay to the facts and not fill in 
the gaps anywhere. Do you see any protect against?
    Mr. Glass. I think that Senator Conrad said that 
information about 9/11 and Flight 93 in particular are still 
unfolding. I think that was an important phrase, because the 
historical record was never complete. Certainly recent history 
is, the evidence about recent history continues to unfold and 
continues to become more accessible.
    So in designing a memorial or writing a placque, just 
basing that design and that text on what we know and not trying 
to improvise or improve on what is already, as I said, a very 
inspirational and compelling story. So the pitfalls are, the 
devil is in the details, I guess, as you go. From my experience 
in writing historical markers, for example, all over 
Pennsylvania, there is just so much you can put on a marker. 
The text becomes very challenging. The location becomes 
challenging, the design becomes challenging. So I think there 
are, it is doable and it has been done everywhere.
    But there are some technical challenges. I know putting a 
plaque in the Capitol is not an easy proposition. There are 
many worthy causes and competing claims, I am sure. So that is 
something that would be up to the process that is here in the 
Capitol.
    Mr. Shuster. Would you have any specific recommendations as 
we move forward on the design and construction of a memorial?
    Mr. Glass. I thought that Ken made a good point, that the 
process that has been used in Shanksville has been very 
inclusive. It has been a very deliberate process that has 
really reached out to a number of different perspectives, even 
the composition of the two juries, one that went through over 
1,000 designs that had been submitted to narrow the list down 
to five, and now a second jury that is reviewing the five 
finalists. Even the composition of those two juries are very 
representative of a number of different points of view.
    And so I think here in the Capitol, obviously, there are 
more constraints in terms of how many points of view you can 
bring to bear. But I would encourage the process to be 
deliberative and inclusive and transparent.
    Mr. Shuster. Everybody keeps talking about a plaque. I have 
mentioned it, too. It seems logical. But it could be something 
else, as long as it is tastefully done. My thought has always 
been, I was here on September 11th in the Capitol, but this is 
one of the events that is going to go down in our history, like 
Lexington and Concord or the Alamo or one of these significant 
events. We can do a lot of different things.
    I am not certain about this, but in the Capitol there are 
frescoes of some of those events, maybe Lexington and Concord 
or the Boston Tea Party. So I don't know when the last time was 
that a fresco was painted in the Capitol, that may be something 
we can take into consideration. As you said, and as Mr. Nacke 
said, it is important to be inclusive, and that we do something 
that reflects what the Nation wants.
    Mr. Glass. I certainly would be happy to assist, if you 
would like me to.
    Mr. Shuster. I am certain we will be calling on you, that 
your experience would be greatly utilized.
    Again, I want to thank all of you for being here. I 
appreciate your making the trip down here and for your input. 
As I told Senator Conrad, we actually had the Speaker hold the 
Senate Resolution at the desk which means we can take it 
straight to the Floor when we pick up. They put a few things 
into it that we liked. I hope that we can have it scheduled the 
first week when we get back from the August recess and take it 
up and vote on it and start to move forward on it. I think that 
would be appropriate.
    I also wanted to mention, thanks to Jack Murtha, who 
actually represented Shanksville on 9/11, but then we have this 
thing we call redistricting. Shanksville became part of the 
Ninth Congressional District, which is my district. But Jack 
Murtha has been very instrumental and very supportive on this 
and I want to make sure that we mention that.
    Again, I want to thank everybody for being here today. Your 
testimony has been very valuable. As we move forward, we will 
make sure that we faithfully reflect the events of what 
happened on 9/11 with Flight 93.
    I need to ask unanimous consent that the record of today's 
hearing remain open for 30 days so that additional comments 
offered by members, individuals or groups might be included in 
the record of today's hearing. Without objection, so ordered.
    And if no other members--I see there are no other members 
of the Subcommittee--we again want to thank you all for being 
here today and look forward to talking to you as we move 
forward. With that, the Subcommittee stands adjourned.
    [Mr. Alan Hantman's prepared statement follows:] 

    [GRAPHIC] [TIFF OMITTED] T5910.006
    
    [Whereupon, at 11:11 a.m., the subcommittee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T5910.007
    
    [GRAPHIC] [TIFF OMITTED] T5910.008
    
    [GRAPHIC] [TIFF OMITTED] T5910.009
    
    [GRAPHIC] [TIFF OMITTED] T5910.010
    
    [GRAPHIC] [TIFF OMITTED] T5910.011
    
    [GRAPHIC] [TIFF OMITTED] T5910.012
    
    [GRAPHIC] [TIFF OMITTED] T5910.013
    
    [GRAPHIC] [TIFF OMITTED] T5910.014
    
    [GRAPHIC] [TIFF OMITTED] T5910.015
    
    [GRAPHIC] [TIFF OMITTED] T5910.016
    
    [GRAPHIC] [TIFF OMITTED] T5910.017
    
    [GRAPHIC] [TIFF OMITTED] T5910.018
    
    [GRAPHIC] [TIFF OMITTED] T5910.019
    
    [GRAPHIC] [TIFF OMITTED] T5910.020
    
    [GRAPHIC] [TIFF OMITTED] T5910.021
    
    [GRAPHIC] [TIFF OMITTED] T5910.022
    
    [GRAPHIC] [TIFF OMITTED] T5910.023
    
    [GRAPHIC] [TIFF OMITTED] T5910.024
    
    [GRAPHIC] [TIFF OMITTED] T5910.025
    
    [GRAPHIC] [TIFF OMITTED] T5910.026
    
    [GRAPHIC] [TIFF OMITTED] T5910.027
    
    [GRAPHIC] [TIFF OMITTED] T5910.028
    
    [GRAPHIC] [TIFF OMITTED] T5910.029
    
    [GRAPHIC] [TIFF OMITTED] T5910.030
    
    [GRAPHIC] [TIFF OMITTED] T5910.031
    
    [GRAPHIC] [TIFF OMITTED] T5910.032
    
    [GRAPHIC] [TIFF OMITTED] T5910.033
    
                                    

</pre></body></html>
